  United States Department of Agriculture
  Office of Inspector General




National School Lunch Program –
Food Service Management Company
Contracts




                                            Audit Report 27601-0001-23
                                            January 2013
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          January 3, 2013

AUDIT
NUMBER:        27601-0001-23

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Director
               Office of Internal Controls, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General or Audit


SUBJECT:       National School Lunch Program—Food Service Management Company Contracts


This report presents the results of the subject audit. Your written response to the official draft
report, dated December 14, 2012, is included in its entirety at the end of this report. Excerpts
from your response and the Office of Inspector General’s position are incorporated into the
relevant sections of the report.

Based on your agency’s written response, we are able to accept management decision on
Recommendations 1, 3, 5, 6, 9, 12, 13, and 15. We can accept the Food and Nutrition Service's
(FNS) management decision on Recommendations 2, 4, 7, 8, 10, 11, and 14 once we have been
provided with the information as outlined in the report sections' OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents
Executive Summary .................................................................................................1
Background and Objectives ....................................................................................5
FNS Oversight and Controls for SFAs and FSMC Contracts.............................7
   Finding 1: FNS Needs to Enhance Its Management Oversight and Controls
   of SFAs That Contract with FSMCs ..................................................................7
         Recommendation 1 ......................................................................................11
         Recommendation 2 ......................................................................................11
         Recommendation 3 ......................................................................................12
         Recommendation 4 ......................................................................................12
         Recommendation 5 ......................................................................................13
   Finding 2: FNS Needs to Improve Its Monitoring of SFAs’ Oversight for
   FSMC Purchase Discounts and Rebates ..........................................................13
         Recommendation 6 ......................................................................................16
         Recommendation 7 ......................................................................................16
   Finding 3: FNS Did Not Ensure Full Credit Was Given for USDA-Donated
   Foods ....................................................................................................................17
         Recommendation 8 ......................................................................................19
         Recommendation 9 ......................................................................................20
         Recommendation 10 ....................................................................................20
         Recommendation 11 ....................................................................................21
   Finding 4: FNS Needs to Improve Reviews of State Agency FSMC
   Contracts .............................................................................................................21
         Recommendation 12 ....................................................................................23
         Recommendation 13 ....................................................................................24
         Recommendation 14 ....................................................................................24
         Recommendation 15 ....................................................................................25
Scope and Methodology .........................................................................................26
Abbreviations .........................................................................................................29
Exhibit A: Summary of Monetary Results .........................................................30
Exhibit B: List of Past OIG Audit Reports on SFA and FSMC Contracts.....31
Agency’s Response .................................................................................................33
National School Lunch Program – Food Service Management
Company Contracts

Executive Summary

The National School Lunch Program (NSLP) was established to safeguard the health and well-
being of our nation’s children and to encourage the domestic consumption of agricultural
commodities. The Food and Nutrition Service (FNS) administers NSLP in conjunction with
designated State agencies. In fiscal year (FY) 2011, approximately 31 million children
participated each day in NSLP and the School Breakfast Program, bringing the total
disbursements to approximately $11 billion.1 The U.S. Senate Committee on Homeland Security
and Governmental Affairs Subcommittee on Contracting Oversight requested that the Secretary
of Agriculture conduct an audit of NSLP food service management company (FSMC) contracts.
In response to the Secretary’s request, our audit reviewed FNS’ controls over State agencies and
school food authorities (SFAs) that contracted with FSMCs for school year (SY) 2011.

SFAs can use two types of contracts to govern their relationship with FSMCs. In a fixed-price-
per-meal contract, the FSMC charges a flat rate for each meal served and must credit the SFA for
the full value of any food the Department of Agriculture (USDA) has donated. In a cost-
reimbursable contract, the FSMC purchases and serves food for an SFA and submits invoices for
payment; in this case, the company must pass along any purchase discounts and rebates it
received for those purchases. Specifically, we assessed whether SFAs that contracted with an
FSMC using a cost-reimbursable type contract received all purchase discounts and rebates the
FSMCs obtained on their behalf, and those that used a fixed-price-per-meal type contract
received the full benefit and value of all USDA-donated foods received.

While FNS has implemented several controls to ensure that NSLP funds and USDA-donated
foods are used to benefit the program, with full credit being given for donated foods, it has not
taken sufficient steps to ensure that those controls are followed.2 Our review of the 18 SFAs
showed that FNS did not exercise sufficient management oversight to ensure that SFAs received
the full benefits of purchase discounts and rebates and other applicable credits (hereafter referred
to as rebates), and the value of USDA-donated foods.3 We identified significant issues at 11 of
the 18 SFAs, which did not have sufficient controls in place to monitor FSMC contracts and
school food service operations. Although FNS regulations list the SFA as the responsible entity,
with State agency oversight, for ensuring compliance with NSLP requirements, we found that the
majority of SFAs we reviewed did little or no monitoring of FSMC operations or their
compliance with contract terms. FNS was not aware of the SFAs’ inadequate monitoring
because it did not require its regional officials to assess the State agencies’ oversight of, or the

1
  References in this report to the National School Lunch Program also include the School Breakfast Program.
2
  While FNS did review State agencies’ oversight of their SFAs for meal claims and nutrition, those reviews did not
include an assessment of how the State agencies monitored the SFAs’ compliance with FSMC contract provisions
and operations
3
  We judgmentally selected 18 SFAs across 3 States, each covered by a different FNS region, that represented
different-sized SFAs and FSMCs to assess FNS, State agency, and SFA oversight of FSMC contracts and
operations.

                                                                         AUDIT REPORT 27601-0001-23               1
SFAs’ compliance with, NSLP requirements or contract terms. FNS stated that it took this
approach because it believed that States and SFAs were in the best position to determine what
kind of oversight steps they should perform. As a result, we questioned almost $1.7 million in
unallowable FSMC charges and in USDA-donated foods that could not be accounted for. These
questionable costs emerged from three separate areas, as described in our findings.

For purchase rebates, we found that 9 of the 12 SFAs in our review with cost-reimbursable
contracts did not ensure that the FSMCs the SFAs contracted with provided sufficient rebates for
purchases made on the SFAs behalf, as required by regulation and the signed contracts.
Although the FSMCs did provide the SFAs with nearly $1 million in cost reductions for NSLP
purchases, SFA officials were either unaware that they were entitled to the rebates or did not
verify that they had received all rebates due to them. FNS officials stated that they believed the
regulations implied that SFAs were responsible for periodically reviewing their cost reduction
rebates from FSMCs. However, FNS neither clearly communicated this expectation either to the
State agencies or to the SFAs, nor provided specific instructions to SFAs on how to most
effectively monitor and track such rebates. As a result, we found that seven SFAs could not
provide any assurance that they received the full amount of purchase rebates to which they were
entitled for SY 2011. Also, we found two SFAs who were not aware of their FSMC’s use of
estimates to calculate purchase rebates, and therefore were underpaid by $1,400 during SY 2010.

For USDA-donated foods, we found that an additional two SFAs (and three of the nine SFAs
mentioned above) did not properly track and account for the USDA-donated foods they received
during SY 2011. While FNS required SFAs to record and track the use of donated foods, SFA
officials generally passed their responsibility to the FSMCs. FNS officials were not aware of this
because the agency listed the tracking of USDA-donated food as an optional item to be examined
during its management evaluation reviews.4 The agency also did not require State agencies to
monitor how SFAs accounted for donated foods. In total, the five SFAs and the three FSMCs
they contracted with could neither account for approximately $480,000 worth of USDA-donated
foods nor demonstrate that they fully credited the SFAs for the food.

Finally, FNS allowed one State agency to implement a FSMC contract for nearly 200 SFAs that
was neither a cost-reimbursable nor a fixed-price-per-meal type contract, which are the only two
types of contracts authorized in the regulation. We also found that the use of this contract led to
confusion on how to implement its unique contract provisions. Although FNS officials stated
that they expressed their concerns to State agency officials about the unique contract provisions,
FNS did not conduct any type of followup review after the contract was implemented Statewide.5
FNS officials stated that it was not within their authority to actually approve or disapprove a
State’s contract. Though they were aware of some issues with the contract, they did not take any
action to prevent the State agency from using it. We also found that neither the State agency nor
the SFAs effectively monitored the FSMCs’ compliance with the unique provisions of this
contract. Based on the three FSMCs’ failure to follow one of these provisions in that contract,



4
  FNS issues annual guidance to its regions for the management evaluation reviews performed of a State agency’s
administration of the NSLP, which includes a list of mandatory and suggested program areas and whether the State
agency has implemented steps to ensure that SFAs are in compliance with program regulations.
5
  The last FNS management evaluation review performed of this State agency was in FY 2006.

2     AUDIT REPORT 27601-0001-23
we determined that the five SFAs we reviewed using this contract paid those FSMCs about $1.2
million in excess program costs during SYs 2009 through 2011.

During our review, we encountered a scope limitation that delayed and ultimately prevented us
from reaching a conclusion on whether FSMCs provided all purchase rebates owed to the SFAs.6
FSMCs and distributors caused many delays while providing us documents on critical elements
of our audit objectives. For instance, it took over 100 days for one FSMC and one vendor to
provide information on the total purchases made and rebates received between them. Once we
received this information, we were still unable to reconcile the totals from both companies or
arrive at any supportable conclusion. In addition, some FSMC documents we did receive
contained inconsistent data, which led us to question their reliability—particularly the accuracy
of information related to purchase rebates. We decided that completing a full analysis, as
intended in the current audit, would unnecessarily delay the issuance of our report, and would
also prevent us from timely recommending corrective actions to prevent the ongoing misuse of
NSLP funds. The recommendations in this report are intended to assure, at a minimum, that
SFAs are aware that they are to receive purchase rebates, and that they need to monitor those
FSMC invoice reductions. We plan to perform additional work regarding purchase rebates and
expect to issue any findings and conclusions in a separate report.

Recommendation Summary
We recommend that FNS work with one State agency and its SFAs to determine if the
$1.2 million paid to three FSMCs represents unallowable program costs and should be
recovered. FNS also needs to work with the State agencies to determine whether the
approximately $480,000 in unaccounted for USDA-donated foods was fully credited to the
SFAs’ school food service. Overall, since many of the issues we identified went undetected by
FNS and State agencies, FNS should evaluate its overall management evaluation process and
oversight system to determine if alternative structures would better serve programs and make
better use of limited resources. We also recommend that FNS enhance its NSLP management
oversight by establishing a working group to provide recommendations to improve controls over
SFAs that contract with FSMCs. FNS needs to improve its monitoring of SFA oversight for
FSMC purchase rebates, and require State agencies to ensure that SFAs are tracking and
monitoring the use of USDA-donated foods by FSMCs. Finally, we recommend that FNS work
with State agencies nationwide to improve their contracts and ensure that State agencies and
SFAs can properly monitor them.




6
  The United States Senate Committee on Homeland Security and Governmental Affairs, issued a letter report to the
Office of Management and Budget on December 4, 2012, reporting their concerns related to government food
service contractors. The report identified the lack of transparency between Federal agencies and contractors which
results in the difficulty to provide effective oversight of food service contracts and assurance that all purchase
rebates and allowances are returned when required.

                                                                        AUDIT REPORT 27601-0001-23               3
Agency Response
In the agency’s response, dated December 14, 2012, FNS officials supported our objectives of
ensuring that SFAs receive full credit for purchase rebates and for USDA-donated foods used by
the FSMCs. FNS officials also concurred with the need for continuous improvement in the
agency’s management evaluation process to identify areas that can be strengthened. They stated
that FNS would implement additional policy guidance and training to further strengthen
oversight activities. However, FNS officials expressed their concern that the audit report does
not fully represent the significant actions FNS has taken to provide management oversight and
guidance to States and SFAs regarding FSMC contracts.

OIG Position

While we recognize that FNS took significant actions to require that all costs to the program be
net of applicable purchase rebates, and that the full value of all USDA-donated foods be credited
to the SFAs, we found that FNS’ current guidance and oversight did not fully address the issues
we identified in our report. Based on FNS’ response, we accept management decisions for
Recommendations 1, 3, 5, 6, 9, 12, 13, and 15. Management decisions can be reached for
Recommendations 2, 4, 7, 8, 10, 11, and 14 once FNS has provided us with the additional
information outlined in the applicable report sections' OIG Position.




4    AUDIT REPORT 27601-0001-23
Background and Objectives

Background
The National School Lunch Act (42 U.S. Code 1751, et seq.) authorized and established the
National School Lunch Program (NSLP) to safeguard the health and well-being of the Nation’s
children and encourage the domestic consumption of agricultural commodities. The Food and
Nutrition Service (FNS), an agency of the Department of Agriculture (USDA), administers
NSLP and provides oversight through its seven regional offices. FNS provides Federal
assistance in cash, through meal reimbursements, and USDA-donated commodities to State
agencies and local School Food Authorities (SFA) by entering into written agreements with a
State agency, usually a State’s Educational Agency, which administers the program Statewide.

FNS regional offices and State agencies are required to perform periodic program oversight
through monitoring reviews and to assist SFAs in their operation of NSLP at the local level.
FNS regional offices conduct periodic reviews, called management evaluations, of each State
agency. State agencies, in turn, perform reviews, called the Coordinated Review Effort, of each
SFA at least once every 5 years.7 Federal regulations permit SFAs to contract with Food Service
Management Companies (FSMCs) to manage their school food service operations. Although
FSMCs can provide daily administration of the food service operations, SFAs that contract with
FSMCs still retain the responsibility of ensuring that food operations comply with Federal
regulations.8 Federal regulations9 require State agencies, as part of their monitoring
responsibilities, to annually review each SFA and FSMC contract before it is signed, to ensure
compliance with Federal requirements.

An SFA that contracts for its food service operations solicits bids from FSMCs by issuing either
a request for proposal (RFP) or an invitation for bid (IFB) that details the contract requirements.
The resulting contracts between an SFA and FSMC can be either cost-reimbursable or fixed-
price-per-meal. In a cost-reimbursable contract, the FSMC submits monthly invoices to the SFA
for all purchases it made on the SFA’s behalf to operate the school food service. Under a cost-
reimbursable type contract, any purchase discounts and rebates (hereafter referred to as rebates)
that an FSMC receives reduce the cost of goods purchased and thus must be passed through to
the SFA in order to reflect the actual cost of preparing the meals. In a fixed-price-per-meal type
contract, the FSMC charges a flat rate for each meal served. Any USDA-donated commodities
that are used in preparing the SFA’s meals must be fully accounted for (under a cost-
reimbursable type contract) or credited (under a fixed-price-per-meal type contract) to the SFA.
The contract between an SFA and an FSMC is a major factor in assuring an SFA's food service




7
  The Coordinated Review Effort is a comprehensive on-site evaluation State agencies are required to perform of all
of their SFAs, at least once every 5 years. FNS regulations identify two critical areas (meal claiming and meal
elements) that are required to be reviewed, but allows each State agency the flexibility to include additional areas of
review, based on its own determinations.
8
  Title 7, Code of Federal Regulations (CFR), Subchapter A, Section 210.21(b).
9
  7 CFR 210.19(a)(6).

                                                                           AUDIT REPORT 27601-0001-23                 5
operation meets NSLP requirements and must be procured following Federal regulations
regarding grantees.10

Following the issuance of several Office of Inspector General (OIG) audits relating to SFA and
FSMC contracts, the crediting of purchase rebates and USDA-donated foods, and monitoring
issues, FNS updated its regulations starting in 2007 and issued revised guidance11 in 2009 for
State agencies and SFAs. FNS took these actions, in part, to ensure that SFAs received the full
benefit and value of all USDA-donated food received for use in the SFAs’ meal service. For
fixed-price-per-meal type contracts, the value of those USDA-donated foods is usually shown as
a reduction on an FSMC’s invoice. For cost-reimbursable type contracts, the amount of USDA-
donated food used for the SFA’s school food service is identified on the FSMC’s operating
statements provided to the SFAs. FNS also changed its requirements for cost-reimbursable type
contracts, mandating that they must contain a provision that clearly requires that all costs to the
program be net of applicable purchase rebates.12 Furthermore, FSMCs are required to provide
sufficient information to permit the SFA to identify allowable and unallowable costs and the
amount of all such purchase rebates on invoices and bills presented for payment to the SFA.13

In July 2010, following an investigation by the New York Attorney General, a large
FSMC settled for $20 million with the State of New York and 21 of its school districts for
improperly withholding purchase rebates under cost-reimbursable contracts. As a result of the
investigation and settlement, the U.S. Senate Committee on Homeland Security and
Governmental Affairs Subcommittee on Contracting Oversight requested that the Secretary of
Agriculture conduct a broader audit on the topic. Later that same year, internal auditors of an
Ohio SFA claimed that an FSMC did not credit the value of USDA-donated foods under a fixed-
price-per-meal type contract back to the SFA. We conducted this audit in response to the
Congressional request to the Secretary for a review of cost-reimbursable type contracts. We
subsequently expanded the audit to include fixed-price-per-meal type contracts, based on the
issues that were raised in Ohio.

Objectives
The objectives of the audit were to (1) assess the effectiveness of any controls implemented by
FNS and selected State agencies as a result of our previous audits, (2) determine whether SFAs
that signed fixed-price-per-meal contracts are receiving the full benefit and value of all donated
foods provided to FSMCs, and (3) determine whether SFAs that signed cost-reimbursable
contracts with FSMCs are receiving all purchase rebates.




10
   7 CFR 3016.36 and 7 CFR 210.21(b).
11
   Guidance for State Agencies-Contracting with Food Service Management Companies, January, 2009, and
Guidance for School Food Authorities-Contracting with Food Service Management Companies, April 2009.
12
   7 CFR 210.21 (f)(1)(i).
13
   7 CFR 210.21 (f)(1)(ii)(A) and (iv).

6     AUDIT REPORT 27601-0001-23
FNS Oversight and Controls for SFAs and FSMC Contracts

Finding 1: FNS Needs to Enhance Its Management Oversight and Controls of
SFAs That Contract with FSMCs
Our review of 18 SFAs showed that FNS did not exercise sufficient management oversight to
ensure that SFAs received the full benefits of purchase rebates and USDA-donated foods. We
identified significant issues at 11 of the 18 SFAs, which did not have sufficient controls in place
to monitor FSMC contracts and school food service operations. Although SFAs are
responsible, with State agency oversight, for contracting with FSMCs and monitoring their
operations and their compliance with contract terms, FNS is responsible for ensuring that State
agencies and SFAs execute those responsibilities. However, FNS was not aware of the
significant issues we identified because it did not require its regional officials to assess State
agencies’ oversight of their SFAs’ compliance with NSLP requirements or contract terms. FNS
stated that it took this approach because it believed that States and SFAs were in the best
position to determine what kind of oversight steps they should perform. Therefore, FNS did not
require training on how to implement any of its rules or guidance, and did not conduct reviews
to ensure that State agencies and SFAs adequately monitored FSMC compliance. As a result,
we questioned almost $1.7 million in unallowable FSMC charges and in USDA-donated foods
that could not be accounted for. Specifically, FNS allowed one State agency to implement a
confusing FSMC contract with 187 SFAs. This contract had unique and unclear provisions that
resulted in over $1.2 million in unallowable costs at the 5 SFAs we reviewed (see Finding 4).
At the local level, nine SFAs could not provide any assurance that they received full credit for
rebates, as required, for FSMC purchases made on their behalf (see Finding 2). Two additional
SFAs (and three of the nine mentioned above) could not account for approximately $480,000 in
USDA-donated foods (see Finding 3).

The Government Accountability Office (GAO) established five goals for internal control
standards in Federal programs, which call for government agencies to establish adequate
controls14 that include (1) the Overall Control Environment; (2) Risk Assessments; (3) Control
Mechanisms; (4) Communications; and (5) Performance Monitoring. We determined that FNS
did not adequately address the five GAO goals, as described below.

        Overall Control Environment: OIG issued several audit reports since 2001 that
        identified FSMC contracting and operations as a key program aspect requiring enhanced
        monitoring and review.15 In response to our audit recommendations, FNS amended
        regulations, issued new rules, and implemented new contract provisions to ensure that
        FSMCs provided sufficient program cost reductions for purchase rebates and the value
        of USDA-donated foods to the SFAs. However, FNS did not implement sufficient
        monitoring to ensure that the new rules and guidance were being followed. For
        instance, during its annual management evaluation process—a key control measure for
        monitoring field-level operations—FNS allowed each regional office to determine

14
   GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, November 1999, and OMB
Circular A-123, Management’s Responsibility for Internal Control, December 2004.
15
   See exhibit B for the listing of past OIG audit reports.

                                                                  AUDIT REPORT 27601-0001-23              7
        whether it needed to assess its State agencies’ monitoring of SFA and FSMC operations.
        Prior to FY 2012, FNS’ management evaluations listed FSMC contracts and operations
        as an optional item to be reviewed. However, our previous audit work clearly
        demonstrated that FSMC purchase rebates and donated foods were a critical program
        aspect that needed more regular attention.

        For instance, our 2002 report on this issue recommended that FNS ensure that its
        management evaluation guidance emphasize reviewing State agency and SFA oversight
        of FSMC operations. At that time, FNS responded that its guidance placed great
        emphasis on that area, and the agency would ensure that such emphasis continued.
        However, in 2010, FNS no longer required that its regional offices review State agency
        oversight of FSMC operations, but instead only recommended that they do so.16 FNS
        officials stated that, even though regional officials were not explicitly required to review
        how State agencies monitor SFA and FSMC operations, the National office still
        expected them to do so, since this topic was well-covered at FNS conferences and in
        training. The three FNS regional offices we reviewed did not meet that expectation, and
        did not review FSMC operations in their management evaluation reports. This occurred
        because FNS National officials did not clearly communicate their expectations to their
        regional office staffs. FNS Headquarters officials agreed that oversight in this area
        needs to go beyond verifying that required provisions are present in contracts—which is
        currently the only element that FNS regional officials are required to review.

        Risk Assessment: After our nationwide report in 2002, FNS implemented many key
        requirements that greatly reduced the risks associated with SFAs contracting with
        FSMCs. Once the initial actions were taken, FNS did not continue to assess these risks
        on an ongoing basis. For example, FNS implemented a web-based training tool, in part
        to help explain the SFAs’ responsibilities in handling FSMC purchase rebates, but did
        not assess whether any SFA officials actually logged in to take the training. Had these
        assessments been performed, FNS might have detected the fact that no officials at any of
        the cited 18 SFAs had taken the training, or that they were still unsure about how to
        handle FSMC purchase rebates.

        In our discussions with SFA officials about how they ensured credit for all purchase
        rebates, we received a variety of responses. While officials from three SFAs briefly
        reviewed every FSMC invoice to verify the purchase rebates, officials from two others
        stated that they were not even aware that they were supposed to be credited. They stated
        the FSMC, and not the SFA, was allowed to keep any purchase rebates it collected.
        These varied responses demonstrate an increased risk that FSMCs could improperly
        retain purchase rebates. FNS officials stated that discounts and rebates are just one of
        the many elements of the NSLP overall, and State agencies and SFAs face the ongoing
        challenge of ensuring that every aspect of the NSLP is monitored on a periodic basis.
        Without risk assessments, though, FNS cannot identify where and how to establish
        effective controls that would make the best use of those limited resources. FNS officials


16
  In FY 2010, FNS reviewed its management evaluation guidance and determined that, given its limited resources
for conducting reviews, it could not require officials to review this program aspect.

8     AUDIT REPORT 27601-0001-23
agreed that using risk assessments or other types of data mining tools could potentially
assist in targeting oversight action.

Control Mechanisms: FNS implemented a new web-based training tool in 2010 as a
mechanism to inform State agencies and SFAs of program requirements, including the
requirements relating to SFAs’ use of FSMCs. However, we found that FNS did not
require State agency and SFA officials to take the training, and a majority of those
officials did not attend. For instance, out of three State agencies we reviewed, two
reviewed only one of two training modules FNS developed. Although State agency
officials were aware of the training tool, they found it too difficult to navigate and time
consuming, and therefore opted not to use it. At the same time, none of the SFAs we
reviewed took any portion of the training, or were aware that training even existed.

FNS officials did not make the training mandatory because that requirement would need
to go through the regulatory clearance process, due to the potential burden placed on
State agency and SFA staff. However, we found that FNS had not assessed the
effectiveness of this key control mechanism to ensure that it was being used by the State
and SFA officials that needed it. FNS officials stated that they were surprised by the
low use of the training tool, and agreed that they should do more to publicize it.

Communication: FNS officials did not fully communicate with or perform proper
oversight at one State agency that implemented a contract that governed the relationship
between its SFAs and FSMCs. While FNS officials do not routinely review State
agencies’ FSMC contracts, they did so with this particular State’s contract before it went
into use for 187 SFAs Statewide. The contract was a combination of both fixed-price
and cost-reimbursable type contracts. Its hybrid nature resulted from a State law that
required procurement by sealed bids, for which Federal regulations require a fixed-price
contract. FNS officials acknowledged the hybrid nature of the contract and informed
State agency officials that the contract might lead to confusion at the SFA level.
However, they did not prevent the State from using it or offer additional guidance to the
State in monitoring the contract. The officials explained that they did not stop the State
from using the contracts, and that regulations do not require FNS to officially approve
FSMC contracts. Although FNS officials stated that they fully communicated their
concerns to State agency officials, those officials stated that they would not have used
their contract if FNS had rejected it. State officials said that the main reason they gave
their contract to FNS to review was to ensure they were complying with NSLP
requirements.

Performance Monitoring: Our review of FNS’ web-based training tool found that it
contained an explanation of program requirements, but did not include procedures,
techniques, and methods (i.e., best practices) that State agencies and SFA officials could
use to monitor program performance. FNS officials stated that they did not know of any
industry-wide FSMC practices, or whether they could be useful for SFAs to monitor.

During our audit, we met with several private SFA and FSMC consultants that provided
different procedures and techniques that SFAs could easily implement. For example,
the industry consultants informed us that the amount of purchase rebates FSMCs receive

                                                        AUDIT REPORT 27601-0001-23            9
        from vendors generally falls within a certain range industry-wide. We identified two
        SFAs with a purchase rebate rate returned to them that was below the minimum
        percentage range for the industry, and subsequently determined that the FSMC was
        providing an estimated amount, instead of the actual amount of rebates received (see
        Finding 2). Monitoring such percentages would be an easy way for SFAs to determine
        whether they need to further investigate their FSMC purchase rebates by requesting
        supporting documents.

        FNS officials questioned whether SFAs could perform in-depth contract monitoring,
        noting that State agencies and SFAs cannot obtain the breadth of information that was
        made available to OIG. However, the SFAs in our review that did monitor their rebate
        credits told us that they had no problems obtaining supporting documents from their
        FSMCs. Also, all SFAs receive monthly operating statements from their contracted
        FSMCs, which could, at a minimum, be used to determine whether the credits received
        in any particular month are in line with industry averages. We found that FNS already
        requires SFAs to monitor FSMC operations, but has not yet developed and provided
        those SFAs with the tools to use the information they already have so that the SFAs may
        obtain some assurance that rebates are being returned.

FNS officials explained that the new web-based training was developed to provide better
guidance to State agencies and SFAs, but were surprised to learn that they were not taking the
initiative to participate or were not aware the training was available. They agreed that they need
to reassess their resources to provide better oversight of contracts between SFAs and FSMCs.
We recommend that FNS create a working group to suggest strategies for improving State
agency and SFA compliance with NSLP requirements. Also, FNS should improve its efforts to
publicize the availability of the web training tool, and amend the existing training to incorporate
specific strategies State agencies and SFAs can use in their oversight.

Overall, our audit identified weaknesses in FNS’ management evaluation process, its key
oversight activity for monitoring State agency, and, to a smaller degree, SFA-level operations.
The management evaluation process occurs annually, and FNS selects State agencies based on a
high risk indicator tool. State agencies that are not selected every 5 years are automatically
selected. However, due to limited resources, the need to prioritize high-risk States, and other
factors, some States go much longer without being evaluated. For instance, in one State where
our audit found the largest problems with contracts and administrative oversight, FNS’ last
regional review occurred in FY 2006. The Attorney General in that State reached a $20 million
settlement in 2010 with an FSMC accused of withholding credits for rebates from its SFAs. 17

We believe that FNS needs to look at alternatives to its management evaluation process to be
able to more frequently review a wide range of program areas, particularly areas that have been
historically problematic. By implementing a meaningful plan of action to improve its control
environment, FNS can improve accountability and have greater assurance that all levels of
stakeholders are fully meeting their oversight responsibilities.


17
 Testimony Before the U.S. Senate Committee on Homeland Security and Government Affairs, Subcommittee on
Contracting Oversight, October 2011.

10     AUDIT REPORT 27601-0001-23
Recommendation 1
Evaluate the management evaluation process, as well as State and field-level oversight activities,
to determine if alternative structures would better serve programs and make better use of limited
resources.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials stated that they will utilize a
working group to evaluate the effectiveness of the management evaluation process in regards to
FSMC contract oversight, and propose alternative methods to assess this operational area and
make better use of limited resources. In addition, the working group will propose a method for
State agencies to include an assessment of SFAs' and FSMCs' compliance with all NSLP
requirements as part of the State agency local administrative review process. The working group
will consist of FNS Headquarters and regional office staff, State agency staff, and SFA staff.
The proposed action plan will be established by December 1, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 2
Create a working group to re-assess the effectiveness of FNS’ oversight, communication, and
monitoring of SFAs that contract with FSMCs, and to develop recommendations for improving
compliance with NSLP requirements. Develop a time-phased action plan, based on the working
group’s recommendations, to implement clear procedures for FNS regional staffs and State
agencies to follow in performing program reviews of SFAs that contract with FSMCs.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials agreed to utilize a working
group to evaluate the effectiveness of FNS' oversight, communication, and State agency
monitoring of SFAs that contract with FSMCs using the management evaluation process, and
propose alternative methods to assess this operational area and make better use of limited
resources. In addition, the working group will propose a method for State agencies to include an
assessment of SFAs' and FSMCs' compliance with all NSLP requirements as part of the State
agency local administrative review process. The working group will consist of FNS
Headquarters and regional office staff, State agency staff, and SFA staff. The proposed action
plan will be established by December 1, 2013.

OIG Position
While we agree with FNS’ response in establishing a working group to evaluate the effectiveness
of oversight, communication, and State agency monitoring of SFAs that contract with FSMCs,

                                                            AUDIT REPORT 27601-0001-23         11
the response did not state whether the proposed action plan would both be required and include
the implementation of new procedures. In order to reach management decision, FNS needs to
clarify that the agency will implement additional procedures for FNS regional and State agency
officials to perform in their review of SFAs that contract with FSMCs.

Recommendation 3
Review and amend the web-based training tool to incorporate procedures, techniques, examples,
and best practices that will assist State agencies and SFAs in providing better oversight of FSMC
school food service operations.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials agreed to ensure that training
materials incorporate procedures, techniques, examples and best practices to assist State agencies
and SFAs in providing better oversight and monitoring of FSMC contracts. Specifically, FNS
will add a new module to its existing Web-based procurement training providing technical
assistance and guidance specifically related to the oversight and monitoring of FSMC contracts.
FNS’ estimated completion date for this action is July 1, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 4
Determine the need to make FNS’ web-based tool a requirement for State agencies and SFAs to
review, and implement a process to track participation.

Agency Response
In the agency’s response, dated December 14, 2012, FNS agreed to issue annual guidance to
State agencies on the availability and need for completion of the web-based procurement training
tool, and monitor its use to determine whether additional action is needed to ensure proper
training. FNS plans to issue the additional guidance by July 1, 2013.

OIG Position
While we agree with FNS’ issuance of annual guidance to State agencies and SFAs on the
availability and need for completing the agency’s web-based training, the response did not state
whether the agency would make the recommended determination on whether State agency and
SFA officials would be required to take the web-based training. In order to reach management
decision, FNS needs to clarify whether such a determination will be part of its proposed
corrective actions.


12     AUDIT REPORT 27601-0001-23
Recommendation 5
Establish a time-phased action plan to ensure that State agencies and SFAs are informed of the
training and encouraged to use it as a resource in identifying their roles and responsibilities in
contracting with an FSMC.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials stated that they will issue
annual guidance to State agencies on the availability and need for completion of the web-based
procurement training tool to assist them with identifying their roles and responsibilities in
contracting with a FSMC. FNS estimates to complete this action by July 1, 2013.

OIG Position
We accept FNS’ management decision.


Finding 2: FNS Needs to Improve Its Monitoring of SFAs’ Oversight for
FSMC Purchase Discounts and Rebates
OIG found that 9 of the 12 SFAs in our review with cost-reimbursable contracts did not ensure
that the FSMCs they contracted with fully credited them for purchase rebates, as required.
Although the FSMCs did provide the SFAs with nearly $1 million in cost reductions for
purchase rebates, SFA officials were either unaware that they were entitled to those purchase
rebates or did not verify that they had actually received all rebates due to them. This occurred
because, although FNS officials stated that they believed the regulations implied that SFAs were
responsible for periodically reviewing their cost reduction rebates from FSMCs, they had not
clearly communicated this nor provided specific instructions to those SFAs on how to best
monitor and track such rebates. As a result, we found that seven SFAs could not provide any
assurance that they received the full amount of rebates they were entitled to for some $19 million
in NSLP funds they received. At the same time, we encountered a scope limitation when
requesting and reconciling purchase and rebate information from a vendor and an FSMC, and
thus were unable to calculate whether any rebates were withheld in some cases. For officials at
the remaining two SFAs, we found that they were not aware of their FSMC’s use of estimates to
calculate purchase rebates listed on the monthly invoices, and therefore were overcharged
$1,400 in program purchases.

FNS requires that, for cost-reimbursable contracts, allowable costs that are paid to an FSMC
must be net of all applicable rebates.18 SFAs are required to actively monitor their contracts, and
FSMCs are required to provide sufficient information to permit SFAs to verify that all rebates




18
     7 CFR 210.21(f)(i).

                                                              AUDIT REPORT 27601-0001-23         13
received by the FSMC for purchases made on the SFA’s behalf have been fully credited on each
monthly invoice or operating statement.19

We noted similar issues in a 2002 OIG audit.20 At that time, FNS did not require that FSMC
contracts contain provisions to ensure that they passed along rebates to SFAs. Since FNS’
implementation of our prior audit recommendations, FSMC contracts include a requirement that
all invoiced costs be net of applicable rebates and other credits. FNS maintains that the
regulations imply that SFAs must review supporting documentation to determine compliance
with crediting for rebates. FNS also issued written guidance on the topic. However, the
guidance did not provide enough information, such as examples of steps to take or types of
documentation to request, for SFAs to practically carry out their monitoring duties.

All the FSMCs we sampled identified rebate amounts on their invoices to the SFAs. However,
two SFAs did not have any process or procedure to track the rebates they received or request
supporting documentation for purchase rebates. Officials at the two SFAs stated that they
thought FSMCs, and not the SFA, were allowed to retain all purchase rebates, even though the
signed contract clearly noted that all purchase rebates would be returned to the SFA. In both
cases, SFA officials acknowledged that they had not read the contracts in their entirety, and thus
were not aware of all of the contract provisions.
We found that five SFAs did keep track of the rebates they received from the FSMCs, but did not
perform any type of analysis or review of supporting documentation to verify that they received
all credits due. SFA officials stated that they did not implement a process because they were
uncertain of how to monitor this aspect of the contract, and instead relied on the FSMCs to pass
through the required rebates on monthly operating statements.
When examining one FSMC’s records, used by three of these five SFAs, we encountered scope
limitations. We attempted to substantiate the company’s total rebate amounts by comparing the
FSMC’s purchases made and rebates received with the totals provided from one of its major
vendors (which provided those rebates). Our analysis found that the FSMC’s rebate totals were
more than 30 percent lower than the rebate amounts reflected in the vendor’s information, thus
suggesting that the FSMC may have underestimated its rebate amounts. When we asked the
FSMC to resolve the discrepancy, it provided us with updated numbers that included additional
rebates that the vendor had taken into account but the FSMC’s original totals had not. FSMC
officials stated that they did not realize the scope of our request initially and hence did not
include all rebates received from their vendor.21 However, even the updated rebate numbers
were still lower than those supplied by the vendor. Because subsequent data received from the
FSMC were inconsistent, and also because the FSMC and vendor had significant delays (more
than 100 days) in supplying us with the data, we decided to classify this as a scope limitation.




19
   7 CFR 210.21(f)(1)(ii)(A) and (B) and (iv).
20
   Food and Nutrition Service National School Lunch Program Food Service Management Companies (27601-0027-
CH, April 2002).
21
   The FSMC also received allowances (another form of a rebate) for marketing and other incentives from its vendor
that it omitted from the original totals provided to OIG.

14      AUDIT REPORT 27601-0001-23
Therefore, we were unable to determine whether the three SFAs were, in fact, getting the correct
amounts of rebates.22
At the remaining two SFAs, officials were not aware that their FSMC provided them with
rebates based on estimates, rather than the actual amounts.23 While an FSMC is not prohibited
from this practice, the SFAs never reconciled these estimates to the actual rebates the FSMC
received. SFA officials stated that they noticed the credit amount for the rebates on the monthly
operating statements, but did not request or review supporting documentation for the amount of
rebates listed. Through discussion with an FSMC official, we determined that the FSMC did
have information to accurately track and allocate the rebates to individual SFAs and could have
provided the actual amounts owed the SFAs, but did not do so because SFA officials never
requested that information. Since officials from both SFAs did not request or review supporting
documentation, they were unaware that their contracted FSMC owed them an additional
$1,400 of purchase rebates. Since the SFA paid the FSMC the gross purchase price, not reduced
by the actual rebates the FSMC received, the $1,400 is considered to be an unallowable cost per
NSLP regulation.24
As described in Finding 1, FNS did develop a web-based training program for State agency and
SFA officials that explained the requirements for FSMC contracts and, particularly, that
allowable program costs were to be net of all applicable rebates. Yet the training did not contain
procedures, techniques, or methods that State agencies and SFA officials could use to monitor
program performance. In addition, FNS officials were not certain whether they could require
State agencies and SFAs to take the training, part of which would have at least informed SFAs
that they were required to be credited for purchase rebates. We note that none of the nine SFAs
in question took the training, and some officials we interviewed did not even know that the
training was available.
When we discussed this with FNS officials, they agreed that SFAs need to do more to improve
oversight of cost-reimbursable contracts. Yet they also maintained that FNS provides program
direction, rather than specific methods of how SFAs should monitor their contractors. They
believe that SFAs should establish practices that work best for them, given their available
resources. While we agree that part of FNS’ role is to provide overall program direction, SFAs
told us that they do need further direction on how to carry out their oversight role. Based on our
discussions with independent consultants for FSMCs and SFAs, we found that there are best
practices available that are both simple and straightforward, such as comparing the percentage of
rebates an SFA receives to the industry averages for such rebates. While such averages may not
reflect the exact amount that any SFA is due from its FSMC, SFAs can easily use them to flag
cases for additional followup when the rebates provided differ substantially from the averages.25
Without training or guidance, however, many SFA officials are unaware that such methods are
available.

22
   We also note that one SFA that was not aware it was entitled to receive credits used the same FSMC that caused
our scope delays.
23
   An FSMC official stated that they provided estimates due to delays in their receiving rebates from their vendors.
24
   7 CFR 210.21(f)(1)(ii)(A) and (B).
25
   We used the industry averages to examine the rebate amounts provided by the FSMCs at the seven SFAs we
selected for review. We did not find any substantial differences between the industry averages and the rebates they
provided.

                                                                        AUDIT REPORT 27601-0001-23               15
In conclusion, we believe FNS needs to clarify its guidance to State agencies and SFAs, so that
they are aware of FNS’ expectations, and provide them with specific examples of monitoring
practices to prevent and detect credit underpayments from FSMCs.

Recommendation 6
Update guidance to clarify FNS’ stated expectation that SFAs are required to periodically review
FSMCs’ supporting documentation for all purchase rebates received.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials agreed to issue an updated
policy guidance memorandum to clarify FNS' stated expectation that SFAs are required to
periodically review FSMCs’ supporting documentation of all purchase rebates received. FNS
plans to complete this action by January 31, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 7
Instruct the State agency to assist two SFAs in recovering $1,400 in uncredited rebates from their
contracted FSMC. Also, conduct a review of all SFAs that contracted with this FSMC to
determine if other SFAs are owed additional purchase rebates.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials stated that they agreed with
recovering any un-credited funds as appropriate according to Federal law and NSLP regulations.
They stated they would confer with OIG prior to determining the appropriate action to take.
They plan to complete these actions by August 1, 2013.

OIG Position
In order to reach management decision for this recommendation, FNS officials need to clarify
whether they plan to instruct the State agency to (1) assist their SFAs to recover the $1,400 in
un-credited rebates, and (2) review of all SFAs that contracted with this FSMC to determine if
other SFAs are owed additional purchase rebates.




16     AUDIT REPORT 27601-0001-23
Finding 3: FNS Did Not Ensure Full Credit Was Given for USDA-Donated
Foods

We found that two SFAs (and three of the nine SFAs mentioned in Finding 2) did not properly
track and account for the USDA-donated foods they received during SY 2011. While FNS
required SFAs to record and track the use of donated foods, SFA officials generally passed their
responsibility to the FSMCs. FNS officials were not aware of this because the agency listed the
tracking of USDA-donated food as an optional item to be examined during its management
evaluation reviews. The agency also did not require State agencies to monitor how SFAs keep
track of USDA-donated foods. In addition, FNS officials did not provide SFAs with specific
procedures for recording and tracking USDA-donated foods, whether in bulk or processed
form. In total, the five SFAs and the three FSMCs they contracted with could neither account
for approximately $480,000 worth of USDA-donated foods nor demonstrate that they fully
credited the SFAs for the foods.

FNS’ requirements26 and guidance state that FSMCs must maintain clear documentation of the
value of any USDA-donated foods, whether in a fixed-price-per-meal or cost-reimbursable type
contract. SFAs are also required to ensure that the USDA-donated foods used in their school
food service are accurately valued, tracked, and credited. In accordance with Federal
regulations, processors, FSMCs, and other entities are required to keep accurate and complete
records with respect to the receipt, distribution/disposal, storage, and inventory of donated
commodities.27 Finally, whether donated foods are sent to an FSMC in bulk or processed form,
FNS requires the SFA to ensure that the foods are used and that the SFA is fully credited for the
foods’ value.28 For processed USDA-donated foods, this means that if an SFA receives
10 pounds of donated chicken that is sent to a processor to be part of a 50-pound batch of
breaded chicken nuggets, the value of the 10 pounds must be tracked throughout the processing
and distribution of the chicken nuggets, and appropriately credited back to the SFA.

For fixed-price-per-meal contracts, an FSMC is required to reduce the contracted price per meal
by the value of USDA-donated foods received. FNS expects this reduction to be shown on the
SFA’s invoice.29 FNS issued this new requirement in 2008, based on a recommendation in a
previous OIG audit report,30 which found that FSMCs were not clearly documenting whether
the SFA received the benefit of USDA-donated foods. Although FNS implemented our
recommendations, they did not implement a followup process to ensure that SFAs complied
with the new requirement.

At one of the six SFAs we reviewed, with a fixed-price-per-meal type contract, we found that it
handed over all USDA-donated food oversight responsibilities to its FSMC. In this case, State
agency records showed the FSMC received $59,897 in USDA-donated food, but the FSMC
provided the SFA with only $38,437 in credits. Although the credits were clearly identifiable

26
   7 CFR 250.51(b).
27
   7 CFR 250.16 (a)(4).
28
   7 CFR 250.54(a)(2).
29
   7 CFR 250.51(b).
30
   OIG Audit report 27601-27-Ch, Food and Nutrition Service National School Lunch Program Food Service
Management Companies, dated April 2002.

                                                                   AUDIT REPORT 27601-0001-23            17
on the monthly invoices, SFA officials did not verify they received the full amount because
they relied on the FSMC to fully account for the value of USDA-donated foods. Thus, we
found that the SFA did not receive $21,460 in credits for USDA-donated foods provided during
SY 2011.

We found that the methods each SFA used to handle USDA-donated foods varied greatly.
Some SFAs took nearly complete control over the receipt and use of USDA-donated foods,
while others allowed their FSMCs complete control over those food items. For instance,
3 SFAs (of the 12 we reviewed) with cost-reimbursable contracts handled all USDA-donated
foods themselves (tracking, processing, etc.), while 9 SFAs either did very little monitoring or
allowed their FSMCs to work directly with food processors to convert donated bulk items into
processed end products. Of these nine, we found that four SFAs did not track all of the USDA-
donated foods sent on their behalf to food processors, and therefore did not know if the foods
were properly accounted for on the FSMC operating statement.

To verify that the FSMCs were tracking USDA-donated foods properly, we compared the value
of USDA-donated foods provided by each State agency to the FSMCs’ operating statements.
One company’s operating statement showed that its SFA received a benefit of $172,796 in
USDA-donated foods for SY 2011. However, when we compared that total to the State
agency’s documents on how much USDA-donated food the SFA should have received, we
found that the SFA should have received $370,018—a difference of $197,222. In total, for all
four SFAs that allowed FSMCs to order and track USDA-donated foods, we calculated a
difference of approximately $457,000 between the value of donated foods the State agencies
recorded and what the FSMCs recorded as being used in the NSLP.

We discussed the discrepancies we found at these four SFAs with FSMC managers, as well as
staff at one food processor and one food distributor that served the FSMCs. Officials from one
FSMC stated that the discrepancy must have stemmed from the USDA-donated foods being
shipped from the State agency directly to a food processor, but the officials were unable to
provide documentation to support their claim. To investigate the issue further, we contacted the
food processor, which provided us with documentation that clearly showed the value of donated
foods included in a processed end product.31 The processor normally provides this
documentation to the food distributor once its work is done. The distributor then ships the food
items to the FSMC. However, officials at the food distributor stated that they did not routinely
track USDA-donated food values and did not include their value on the invoices sent to SFAs
or FSMCs.

Federal regulations require food processors and distributors to maintain records of the value of
USDA-donated foods.32 However, FNS’ policy regarding those regulations does not require
distributors to provide that documentation in a readily available or easily identifiable form.33
Although a distributor official stated they could provide the value of processed USDA-donated
foods shipped to SFAs and FSMCs, it would take detailed research of thousands of line items to


31
   The processor also accounted for any waste that may have occurred.
32
   7 CFR 250.16 (a)(4).
33
   FNS Policy No. FD-007, State Processing, Net Off Invoice Value-Pass-Through Method, issued March 2003, and
revised in December 2011.

18      AUDIT REPORT 27601-0001-23
arrive at that value. Since the distributor did not have the documentation readily available for
us to review, it also would not be readily available to an SFA or FSMC for them to track
processed USDA-donated foods.

We determined that since the State agencies, SFAs, and FSMCs could not account for the value
of USDA-donated foods sent to processors and distributors, we were unable to conclude and
FNS does not have assurance that the full value of donated foods was credited to the SFAs, as
required. Although FNS amended its policy in December 2011, regarding how processors and
distributors should document the value of processed USDA-donated foods, it still did not
require distributors to have that documentation in a ready to use form. In addition, State agency
officials were unaware of this issue because FNS did not require them to implement a process
to hold their SFAs accountable for the value of USDA-donated foods.34 In addition, FNS’ web-
based training for State agencies and SFAs did not include specific procedures for recording
and tracking USDA-donated foods, whether in bulk or processed form. While monitoring the
SFAs’ tracking of USDA-donated food values was included as an optional item in FNS’
management evaluation process, we found that none of the three FNS regional offices actually
assessed this area as part of their reviews.

FNS needs to improve its oversight and controls to ensure that State agencies and SFAs fully
account for USDA-donated foods, especially those items sent to food processors. To start, FNS
should require its regional offices to review how State agencies and SFAs control and account
for the full value of USDA-donated foods. In addition, FNS should require that State agencies
and SFAs compare the value of USDA-donated foods to the amount of credit listed on the
FSMCs’ invoices or operating statements.

Recommendation 8
Work with the State agency to (1) ensure the SFA collects from its contracted FSMC the
$21,460 in credits for USDA-donated foods, and (2) fully account for the $457,000 in USDA-
donated foods to ensure that the SFAs receive full credit.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials agreed to recover any un-
credited funds as appropriate according to Federal law and NSLP regulations. The officials
stated that they would confer with OIG prior to determining the appropriate actions to take and
plan to complete these actions by August 1, 2013.

OIG Position
While we agree with FNS’ actions to recover $21,460 in un-credited funds, the agency’s
response did not address the $457,000 in USDA-donated foods that were not accounted for by
the FSMCs or SFAs. In order to reach management decision, FNS needs to provide us with a

34
 FNS, Contracting with Food Service Management Companies: Guidance for School Food Authorities, issued
April 2009.

                                                                 AUDIT REPORT 27601-0001-23              19
response that states how it will work with the State agency to account for the $457,000 in
USDA-donated foods to ensure that the SFAs receive full credit.

Recommendation 9
Ensure FNS regional offices review how State agencies monitor the implementation of contracts
between SFAs and FSMCs; specifically, how State agencies and SFAs account for all USDA-
donated foods and any credits they received from their FSMCs.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials stated that in 2009, FNS
strengthened the management evaluation of State agencies by establishing a NSLP Management
Evaluation Risk Assessment Tool to select State agencies for evaluations based on risk rather
than a calendar year. The tool includes an assessment of a significant number of State and/or
local procurement issues, including FSMC contracts, as a "High Priority" risk indicator.
Additionally, in FY 2013, the management evaluations of State agencies will assess the oversight
of contracts between SFAs and FSMCs as evidenced by the addition of the USDA Foods and
Processing of USDA Foods section in the FY 2013 management evaluation guidance, and the
identification of this section, and the FSMC section as "critical areas" for management
evaluations conducted in FY 2013. In a follow-up email, dated December 19, 2012, FNS
provided OIG with the FY 2013 management evaluation guidance and stated that sections will
remain “critical areas” in the management evaluation process until such a time FNS decides to
move them to “non-critical.” FNS will document the reason for moving these areas to “non-
critical” as necessary.

OIG Position
We accept FNS’ management decision.

Recommendation 10
Implement requirements for SFAs to ensure that the value of USDA-donated foods provided to
FSMCs is properly accounted for and credited on the FSMCs’ monthly invoices. In addition,
require that State agencies, during their periodic reviews, monitor their SFAs to ensure
compliance with this requirement.

Agency Response
In the agency’s response, dated December 14, 2012, FNS agreed to issue an updated policy
guidance memorandum to clarify FNS' stated expectation that SFAs properly account for and
receive the credit on monthly invoices for USDA-donated foods provided to FSMCs, and that
State agencies, during their periodic reviews, monitor SFAs to ensure compliance with FSMCs
providing supporting documentation of all purchase rebates received. FNS estimated to
complete this action by January 31, 2013.

20     AUDIT REPORT 27601-0001-23
OIG Position
While we agree with FNS’ stated action, the agency’s response did not state whether the
proposed policy update memo would actually require that SFAs account for and collect the value
of USDA-donated foods provided to FSMCs, and that State agencies would be required to
perform the recommended monitoring. To reach management decision, FNS needs to clarify
whether these actions will be incorporated as requirements in the new guidance.

Recommendation 11
Establish minimum requirements for State agencies to review their SFAs’ process for
documenting and accounting for the value of USDA-donated bulk foods sent to food processors.

Agency Response
In the agency’s response, dated December 14, 2012, FNS responded that in FY 2013, the agency
will assess the oversight of contracts between SFAs and FSMCs during management evaluations,
as evidenced by the addition of the USDA Foods and Processing of USDA Foods section in the
FY 2013 management evaluations guidance, and the identification of this section, and the FSMC
section as "critical areas" for management evaluations conducted in FY 2013.

OIG Position
While we recognize that FNS has agreed to add a new section to the management evaluation
guidance for improved oversight of USDA-donated foods, this action would not establish
minimum requirements for State agencies to follow. In order to reach management decision,
FNS officials need to clarify their plans to establish the recommended requirements for State
agencies to follow.


Finding 4: FNS Needs to Improve Reviews of State Agency FSMC Contracts
FNS allowed one State agency to implement an FSMC contract for 187 of its SFAs that was
neither a cost-reimbursable nor a fixed-price-per-meal type contract, which are the two types of
contracts authorized in the regulation. Further, we found that the use of this alternative type of
contract, which contained unique provisions, led to SFA officials’ confusion in ensuring FSMCs’
compliance. Although the State did submit the contract for FNS review before using it, FNS
officials stated that it was not within their authority to actually approve or disapprove the
contract. They were aware of some issues with the contract, but did not take action to prevent its
use, even though FNS officials told us that they expressed concerns to the State agency about the
potential confusion that its unique terms could create. We also found that once the State agency
implemented the contract, neither State nor SFA officials effectively monitored the FSMCs’
compliance with its unique provisions. Based on one provision of the contract, we determined
that the five SFAs we reviewed paid about $1.2 million in excess program costs for


                                                            AUDIT REPORT 27601-0001-23          21
SY 2009 through SY 2011. We note that 182 other SFAs were subject to this same contract, and
may also have similar problems with excess program costs.
One of the three State agencies we reviewed developed a contract that had elements of both cost-
reimbursable and fixed-price-per-meal type contracts. It had the foundations of a fixed-price-
per-meal contact, but if the FSMC’s direct costs of operation did not equal the actual costs of
operations, FSMCs were required to make adjustments each month and provide the difference to
the SFA.35 For instance, if at the beginning of the contract, the FSMC estimated that each meal
served would cost $1, and if it served 1,000 meals, the FSMC would charge the SFA $1,000 for
that month. However, if (after reconciling to actual costs) the FSMC’s actual cost for the month
was $0.80 per meal, the SFA would be entitled to the $0.20 difference. This would then result in
a $200 refund ($1,000 - $800 = $200), required to be paid within 10 days after the end of the
month. Regulations require that FSMCs exclude all unallowable costs from invoices submitted
to SFAs for payment.36
Our review of 5 of the State agency’s 187 SFAs that used the contract during SY 2009 through
SY 2011, found that none ensured that their FSMCs were actually reconciling their costs on a
monthly basis, as required. Instead, they allowed the FSMCs to perform this reconciliation on an
annual basis. However, our analysis of a full year’s invoices showed that there was a significant
difference between performing the reconciliations annually, instead of monthly. For example, if
costs for one month were $100 over what was estimated, and costs for the next month were
$90 under what was estimated, in the yearly reconciliation, the FSMC would only need to pay
the SFA $10 ($100 - $90). However, if conducted on a monthly basis, as required, the FSMC
would have had to absorb the $100 loss for the first month, and pay the SFA $90 in the second
month.
We reviewed the FSMCs’ operating statements and invoices provided to the five SFAs and
found that the SFAs were reimbursed approximately $210,000, based on annual reconciliations.37
However, we recalculated that reconciliation on a monthly basis and determined that if the
FSMCs had reconciled the food service accounts on a monthly basis, as the contract requires, the
five SFAs would have been entitled to nearly $1.4 million in program cost reductions.
Therefore, the FSMCs charged the SFAs about $1.2 million in unallowable program costs.
State officials stated that they provided a copy of the hybrid contract to FNS for review, and FNS
officials viewed it as essentially a cost-reimbursable type contract, which is allowed under
Federal regulations. FNS National officials did note concerns that some contract provisions
might have been confusing in regards to monitoring costs, but did not take actions to stop the
State agency from requiring its SFAs Statewide from using it. FNS officials stated that they did
not officially communicate their approval of the contract because Federal regulations do not
require FNS’ approval before the State agency can implement their contract. FNS also did not
ask the State agency to amend the contract terms.




35
   State agencies contract, Section 22 (G).
36
   7 CFR 210.21(f)(1)(ii)(A) and (B) and (f)(2).
37
   Two SFAs did not contract with the FSMC for all three years. One SFA contracted for one and a half years while
another was for two years.

22      AUDIT REPORT 27601-0001-23
Although FNS issued updated guidance for State agencies and SFAs explaining their
responsibilities when contracting with FSMCs,38 this guidance did not cover the issues that arose
from this State’s unique contract provisions. Despite FNS officials voicing concerns that the
contract might be complex to implement and monitor, neither FNS nor the State agency provided
guidance to the SFAs for ensuring compliance with the contract terms. Thus, SFA officials were
unaware of what was required of them. At all five SFAs, officials were not even aware that the
FSMC was required to perform monthly reconciliations, and one SFA was not aware it was
entitled to the difference between the actual and direct costs.
The State agency did not review FSMC contract compliance during its Coordinated Review
Effort, under which it reviews every SFA in the State over a 5-year period. Although they had
indications from informal conversations with SFAs that FSMCs might not have been reconciling
costs on a monthly basis, State agency officials explained that they were nutritionists, rather than
accountants, and thus did not have the expertise to conduct the type of review needed to ensure
that FSMCs were in compliance. In addition, the officials noted that FNS does not require
contract compliance to be assessed in its Coordinated Review Effort guidance. We noted that
FNS recently began a process to revise the Coordinated Review Effort, which it expects to
complete next year. Therefore, as part of that effort, we believe FNS should put greater
emphasis on SFAs' monitoring of FSMC operations and, in particular, in ensuring contract terms
are enforced.
To prevent this situation from recurring, FNS needs to improve its oversight of State agencies’
FSMC contracts. Although we concur that FNS is not specifically required to review and
approve contracts, FNS officials should take appropriate action in situations where they become
aware that a contract does not comply with Federal regulations regarding grantees. Moreover,
when contracts contain potentially confusing or complex requirements, FNS should work with
the State agencies to ensure that they provide necessary guidance to SFAs. Although contracts
for NSLP food service are between the SFAs and FSMCs, the program itself is administered by
FNS and the agency has a responsibility to provide sufficient oversight, particularly when this
involves issues at the Statewide level.

Recommendation 12
Work with the State agency to determine if the $1.2 million in program funds should be
recovered from the cited FSMCs.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials agreed to recover any un-
credited funds as appropriate according to Federal law and NSLP regulations. FNS will confer
with OIG prior to determining the appropriate action to take, with an estimated completion date
of August 1, 2013. In a follow-up email, dated December 19, 2012, FNS stated that it would
work with State agencies when determining if funds should be recovered.

38
 Contracting with Food Service Management Companies: Guidance for School Food Authorities, issued
April 2009, and Guidance for State Agencies, issued January 2009.


                                                                 AUDIT REPORT 27601-0001-23         23
OIG Position
We accept FNS’ management decision.

Recommendation 13
Work with the State agency to develop an action plan to review the remaining 182 SFAs to
ensure that FSMCs reconciled actual costs on a monthly basis and, if not, determine the amount
of any additional cost reductions owed and ensure they are deposited in the SFAs’ food service
accounts.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials agreed to work with the
regional office, OIG, and the State agency to determine the remaining 182 SFAs contracting with
FSMCs. Upon identification of the 182 SFAs in need of a review, the State agency will develop
an action plan to review the remaining SFAs to ensure that FSMCs reconcile actual costs on a
monthly basis, determine additional cost reductions owed, and ensure these deposits are made to
the SFA nonprofit school food service account. FNS estimated completion of these actions by
August 1, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 14
Develop a plan to review all State agency contracts nationwide and provide guidance to those
State agencies, as needed.

Agency Response
In the agency’s response, dated December 14, 2012, FNS agreed with the recommendation. The
NSLP Management Evaluation Risk-Based Assessment Workgroup consisting of FNS
Headquarters and regional office staff will convene to develop a plan for reviewing State
agencies having a prototype FSMC contract through the management evaluation process, and
estimated completion of its plan by September 30, 2013.

OIG Position
While we agree with FNS on the development of a plan to review State agencies’ contracts, the
response did not state whether the review process would be followed by issuing guidance State
agencies if needed. In addition, the response did not provide information on how FNS would
address those States that do not utilize prototype contracts. To reach a management decision,
FNS needs to provide clarification on these two areas.

24     AUDIT REPORT 27601-0001-23
Recommendation 15
As part of the process to amend the Coordinated Review Effort, or other State methods of
conducting local administrative reviews, ensure that the review process requires an assessment
of SFAs’ and FSMCs’ compliance with all contract provisions.

Agency Response
In the agency’s response, dated December 14, 2012, FNS officials agreed to utilize a working
group to propose a method for State agencies to include an assessment of SFAs' and FSMCs'
compliance with all NSLP requirements as part of the State agency local administrative review
process. The working group will consist of FNS Headquarters and regional office staff, State
agency staff, and SFA staff. The proposed action plan will be established by December 1, 2013.

OIG Position
We accept FNS’ management decision.




                                                          AUDIT REPORT 27601-0001-23       25
Scope and Methodology
We encountered a scope limitation when we looked at whether SFAs received all purchase
discounts and rebates to which they were entitled. We encountered numerous delays (over
100 days) in receiving documents from both FSMCs and related vendors. In addition, the FSMC
and vendor documents we did receive contained inconsistent data, which led us to question the
data reliability, particularly the accuracy and completeness of information related to discounts
and rebates that FSMCs received from their suppliers and passed through to the SFAs.

In May 2012, an FSMC provided us with the total purchase and rebate data from one of its
largest vendors, which we compared to the vendor’s total sales and rebate data for that FSMC.
The vendor’s figures suggested that the FSMC understated its purchases by over $800 million
and the related rebates by about $50 million. In June 2012, the vendor provided updated and
significantly lower figures, explaining that the initial figures included both the FSMC’s data and
that of a buying group, owned by the FSMC, which has no connection with the NSLP. The
vendor’s new figures, while closer, still suggested that the FSMC had understated its total
purchases by approximately $50 million and rebates by approximately $15 million. When we
discussed this difference with FSMC officials in July 2012, they provided new data and
explained that certain rebate categories had been inadvertently excluded from the initial figures
supplied to OIG in May 2012. These updated figures still did not match those provided by the
vendor, thus causing us to conclude that, without additional work, we cannot at this time
determine whether this FSMC provided all purchase discounts and rebates to its SFAs. To avoid
unnecessarily delaying the issuance of this report, we will continue this work and expect to issue
any findings and conclusions in a separate report.

Our audit reviewed FNS’ controls over State agencies and SFAs that contracted with FSMCs
during SY 2011.39 We performed our audit work at the FNS National office in Alexandria,
Virginia, and three FNS regional offices: the Northeast Regional Office located in Boston,
Massachusetts; the Midwest Regional Office located in Chicago, Illinois; and the Mid-Atlantic
Regional Office located in Robbinsville, New Jersey. We also performed audit work at three
State agencies in New Jersey, New York, and Ohio. We expanded our review to include
SY 2009 and SY 2010, relating to New York’s FSMC contract provisions. We performed our
audit from October 2011 through August 2012.

According to FNS, there were approximately 23,000 SFAs participating in the NSLP. However,
FNS did not maintain documentation on the extent of those SFAs’ use of FSMCs to operate their
school food service. In order to determine a universe of SFAs from which we could select our
sample, we requested all 55 State agencies to provide details of their SFAs’ use of FSMCs within
each State.40 Based on their responses, we found that there were approximately 3,000 SFAs that
contracted with over 180 different FSMCs. FNS did maintain documentation on the value of
USDA-donated food provided to SFAs in the NSLP, and of the approximately $1.1 billion
provided nationwide, we determined that approximately $154 million was given to those


39
  A school year (SY) operates from July 1st in one year through June 30th of the following year.
40
  A State agency includes all 50 U.S. States plus American Samoa, District of Columbia, Guam, Puerto Rico, and
the Virgin Islands.

26      AUDIT REPORT 27601-0001-23
3,000 SFAs during SY 2011. Also, FNS did not maintain an information system for the NSLP or
a data system for tracking processed foods; therefore, we were unable to assess the controls in
place.

We selected a judgmental sample of 18 SFAs in 3 States, with oversight of those State agencies
provided by 3 of FNS’ 7 regional offices. We selected our sample of SFAs to review based on
the following factors; (1) a high number of SFAs within a State that contracted with an FSMC;
(2) the types of FSMC contracts used, either cost-reimbursable or fixed-price-per-meal; and (3)
the estimated size (i.e., small, medium, and large) of FSMC operations, which we determined
based on the number of school food service contracts nationwide.41 Of the 18 SFAs we selected,
12 had cost-reimbursable contracts and 6 had fixed–price-per-meal contracts with 5 different
FSMCs (1 small, 2 medium, and 2 large). In addition, we requested supporting documentation
for purchases and rebates from two vendors that supplied those FSMCs, and interviewed officials
at one food processor and one distributor.

To accomplish our audit objectives we:

        ·   Reviewed FNS regulations, policies, guidance, and instructions governing NSLP,
            specifically for SFAs that contract with FSMCs;

        ·   Reviewed FNS’ guidance to its regional offices on conducting management
            evaluation reviews, and reviewed the most recent management evaluations performed
            at the States we selected for review;

        ·   Interviewed officials from FNS’ National and regional offices, State agencies, and
            SFAs on the controls and procedures to monitor and oversee contracts with FSMCs;

        ·   Reviewed the State agencies’ Coordinated Review Effort guidance and reports for
            each of the SFAs we selected, and the corrective actions taken in response to any
            findings and recommendations;

        ·   Evaluated the State agencies’ controls for properly valuing USDA-donated foods and
            the processes used by SFAs to ensure their contracted FSMCs fully accounted for or
            provided full credit for the value of those foods used in the SFAs’ school food
            service;

        ·   Reviewed State agencies’ FSMC contracts to ensure they met FNS requirements.
            Also reviewed the State agencies’ processes to ensure SFA and FSMC contracts
            contained those required contract provisions;

        ·   Evaluated SFA controls over the FSMC contract bidding and selection process to
            ensure they met Federal and State regulations regarding grantees;



41
  We categorized the size of FSMC operations by the number of SFA contracts each maintained according to the
data we collected from the State agencies. We defined a FSMC operation as small if it had between 1 and
10 contracts, medium between 11 and 100 contracts, and large if it had over 100 contracts nationwide.

                                                                    AUDIT REPORT 27601-0001-23             27
       ·   Analyzed SFAs’ school food service monthly operating statements and invoices
           provided by FSMCs to verify that the SFAs received all purchase discounts and
           rebates and applicable credits;

       ·   Interviewed FSMC management officials and analyzed their processes for allocating
           and crediting SFAs for their share of purchase discounts and rebates;

       ·   Evaluated FSMCs’ purchasing, sales, and distribution contracts and agreements with
           vendors for supplies and food used in the SFAs’ school food service;

       ·   Interviewed FSMCs’ vendors and distributors to verify the amount of purchases and
           rebates the FSMC received;

       ·   Interviewed a food processor regarding its process to track and record the value of
           USDA-donated foods received, processed, and shipped to FSMCs for use in SFAs'
           school food service;

       ·   Interviewed officials from one State’s Attorney General’s office to gain a better
           understanding of the issues identified in the FSMC investigation and settlement; and

       ·   Interviewed two third-party consultants to establish their roles and discuss issues with
           ensuring that all rebates are being returned by the FSMC to the SFAs.

We conducted this performance review in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings, and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




28     AUDIT REPORT 27601-0001-23
Abbreviations

CFR ............................Code of Federal Regulations
CRE ............................Coordinated Review Effort
FY ..............................Fiscal Year
FNS ............................Food and Nutrition Service
FSMC .........................Food Service Management Company
GAO ...........................Government Accountability Office
IFB .............................Invitation for Bid
NSLP ..........................National School Lunch Program
OIG ............................Office of Inspector General
SFA ............................School Food Authority
SY ..............................School Year
U.S. ............................United States
USDA.........................U.S. Department of Agriculture




                                                                  AUDIT REPORT 27601-0001-23   29
Exhibit A: Summary of Monetary Results


      Finding Recommendation                   Description            Amount                  Category
                                           FSMC purchase
                                                                                        Questioned Costs,
          2                  7             rebates owed to                 $1,400
                                                                                        No Recovery
                                           two SFAs

                                           Credit for USDA-                             Questioned Costs,
          3                  8                                            $21,460
                                           donated foods                                No Recovery

                                           Account for
                                                                                        Questioned Costs,
          3                  8             USDA-donated                 $457,000
                                                                                        No Recovery
                                           foods

                                           Unallowable                                  Questioned Costs,
          4                 12                                        $1,200,000
                                           program costs                                No Recovery


                                 TOTAL                              $1,679,86042




42
     This amount would be returned to the applicable SFAs’ food service accounts upon collection.

30         AUDIT REPORT 27601-0001-23
Exhibit B: List of Past OIG Audit Reports on SFA and FSMC Contracts


  Audit Number                      Audit Title                      Issue Date

                FNS National School Lunch Program Controls
  27601-0010-AT Over Food Service Management Companies, South      February 2001
                Carolina School Years 1997 through 1999

                  FNS National School Lunch Program Food Service
  27601-0009-TE                                                    March 2001
                  Management Companies

                  FNS National School Lunch Program Food Service
  27099-0015-SF                                                    April 2001
                  Management Companies

                  FNS National School Lunch Program Food Service
  27601-0012-KC                                                    May 2001
                  Management Companies

                  FNS National School Lunch Program Food Service
  27601-0024-CH                                                    September 2001
                  Management Companies – Midwest Region

                  FNS National School Lunch Program Chartwells
  27601-0013-KC                                                    March 2002
                  Food Service Management Company

                  FNS National School Lunch Program Food Service
  27601-0027-CH                                                    April 2002
                  Management Companies

                FNS National School Lunch Program Food Service
  27601-0014-KC Management Company Cost Reimbursable               December 2002
                Contracts in Missouri
                FNS National School Lunch Program Cost-
  27601-0015-KC Reimbursable Contracts with a Food Service         December 2005
                Management Company




                                                   AUDIT REPORT 27601-0001-23       31
32   AUDIT REPORT 27601-0001-23
Agency’s Response




                USDA’S
      FOOD AND NUTRITION SERVICE'S
       RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27601-0001-23   33
                 DATE:         December 14, 2012
United States
Department of
Agriculture      AUDIT
                 NUMBER:        27601-0001-23
Food and
Nutrition
Service          TO:            Gil H. Harden
                                Assistant Inspector General for Audit
3101 Park                       Office of Inspector General
Center Drive
Room 712
                 FROM:          /s/ <Yvette S. Jackson> (for): Audrey Rowe
Alexandria, VA
22302-1500                      Administrator
                                Food and Nutrition Service

                 SUBJECT:      National School Lunch Program – Food Service Management
                               Companies Contracts

                 This letter responds to the Office of Inspector General’s (OIG) official draft report for
                 audit report number 27601-0001-23, National School Lunch Program – Food Service
                 Management Companies Contracts. Specifically, the Food and Nutrition Service (FNS)
                 is responding to the fifteen recommendations in the report.

                 FNS supports OIG’s objectives to ensure State agencies and school food authorities
                 (SFA) understand and fulfill their roles and responsibilities regarding the oversight and
                 monitoring of contracts with Food Service Management Companies (FSMC), and that
                 SFAs are receiving the full benefit and value of all donated foods provided to FSMCs
                 and the full value of all credits, discounts, and rebates associated with cost
                 reimbursable contracts.

                 FNS sees merit in the continuous improvement of the management evaluation process
                 for State agency oversight of SFA monitoring of FSMC contracts, identifying areas that
                 can be strengthened. In addition, the implementation of proactive measures, such as
                 additional policy guidance and clarification, and training emphasizing State agency and
                 SFA roles and responsibilities in contracting with FSMCs, will further strengthen
                 oversight activities.

                 However, FNS believes the OIG report does not fully represent the significant actions
                 FNS has taken to provide management oversight and guidance to States and SFAs
                 regarding FSMC contracts. These actions include, but are not limited to:

                    •     FNS issued two rules: “Procurement Requirements for the NSLP, SBP, and
                          SMP”, dated October 31, 2007, requiring all costs to the program be net of
                          applicable purchase rebates, discounts, and credits; and “Management of
                          Donated Foods in Child Nutrition Programs, the Nutrition Services Incentive
                          Program, and Charitable Institutions, dated August 8, 2008, requiring the
                                                                                 P age |2




           value of all donated foods to be credited to the nonprofit school food service
           account;
   •       Issued numerous policy guidance memoranda between fiscal years (FY) 2008
           to 2011 clarifying procurement and FSMC oversight requirements and
           provide technical assistance to State agencies for oversight of SFAs’
           monitoring of FSMCs; and
   •       Conducted trainings during numerous conferences such as the School
           Nutrition Association (SNA), American Commodity Distribution Association
           (ACDA), and other State conferences, to State agencies, SFAs, and Regional
           Office (RO) staff, to provide technical assistance and guidance from FYs 2008
           to 2012.

In addition to the continuation of these proactive controls, FNS planned actions along
with the proposed dates of implementation are specified below.

OIG Recommendation 1

Evaluate the management evaluation process, as well as State and field-level oversight
activities, to determine if alternative structures would better serve programs and make
better use of limited resources.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will utilize a working group to evaluate the
effectiveness of the management evaluation (ME) process in regards to FSMC contract
oversight and propose alternative methods to assess this operational area and make better
use of limited resources. In addition, the working group will propose a method for State
agencies to include an assessment of SFAs’ and FSMCs’ compliance with all NSLP
requirements as part of the State agency local administrative review process. The
working group will consist of FNS Headquarters and RO staff, State agency staff, and
SFA staff. The proposed action plan will be established by December 1, 2013.

Estimated completion date: December 1, 2013


OIG Recommendation 2

Create a working group to re-assess the effectiveness of FNS’ oversight, communication,
and monitoring of SFAs that contract with FSMCs, and to develop recommendations for
improving compliance with NSLP requirements. Develop a time-phased action plan,
based on the working group’s recommendations, to implement clear procedures for FNS
regional staffs and State agencies to follow in performing program reviews of SFAs that
contract with FSMCs.




                             AN EQUAL OPPORTUNITY EMPLOYER
                                                                                 P age |3




Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will utilize a working group to evaluate the
effectiveness of FNS’ oversight, communication, and State agency monitoring of SFAs
that contract with FSMCs using the ME process and propose alternative methods to
assess this operational area and make better use of limited resources. In addition, the
working group will propose a method for State agencies to include an assessment of
SFAs’ and FSMCs’ compliance with all NSLP requirements as part of the State agency
local administrative review process. The working group will consist of FNS
Headquarters and RO staff, State agency staff, and SFA staff. The proposed action plan
will be established by December 1, 2013.

Estimated completion date: December 1, 2013


OIG Recommendation 3

Review and amend the web-based training tool to incorporate procedures, techniques,
examples, and best practices that will assist State agencies and SFAs in providing better
oversight of FSMC school food service operations.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will ensure that training materials
incorporate procedures, techniques, examples and best practices to assist State agencies
and SFAs in providing better oversight and monitoring of FSMC contracts. Specifically,
FNS will add a new module to its existing Web-based procurement training providing
technical assistance and guidance specifically related to the oversight and monitoring of
FSMC contracts.

Estimated Date of Completion: July 1, 2013


OIG Recommendation 4

Determine the need to make FNS’ web-based tool a requirement for State agencies and
SFAs to review, and implement a process to track participation.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will issue annual guidance to State agencies
on the availability and need for completion of the Web-based procurement training tool
and monitor its use to determine whether additional action is needed to ensure proper
training.

Estimated Date of Completion: July 1, 2013



                             AN EQUAL OPPORTUNITY EMPLOYER
                                                                                P age |4




OIG Recommendation 5

Establish a time-phased action plan to ensure that State agencies and SFAs are informed
of the training and encouraged to use it as a resource in identifying their roles and
responsibilities in contracting with a FSMC.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will issue annual guidance to State agencies
on the availability and need for completion of the Web-based procurement training tool
to assist them with identifying their roles and responsibilities in contracting with a
FSMC.

Estimated Date of Completion: July 1, 2013


OIG Recommendation 6

Update guidance to clarify FNS’ stated expectation that SFAs are required to periodically
review FSMCs’ supporting documentation for all purchase rebates received.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will issue an updated policy guidance
memorandum to clarify FNS’ stated expectation that SFAs are required to periodically
review FSMCs supporting documentation of all purchase rebates received.

Estimated completion date: January 31, 2013


OIG Recommendation 7

Instruct the State agency to assist two SFAs in recovering $1,400 in un-credited rebates
from their contracted FSMC. Also, conduct a review of all SFAs that contracted with this
FSMC to determine if other SFAs are owed additional purchase rebates.

Food and Nutrition Service Response:

FNS concurs with this recommendation and agrees with recovering any un-credited funds
as appropriate according to federal law and NSLP regulations. FNS will confer with OIG
prior to determining the appropriate action to take.

Estimated Completion Date: August 1, 2013 (estimate, contingent on OIG
direction)




                             AN EQUAL OPPORTUNITY EMPLOYER
                                                                                   P age |5




OIG Recommendation 8

Work with the State agency to (1) ensure the SFA collects from its contracted FSMC the
$21,460 in credits for USDA-donated foods, and (2) fully account for the $457,000 in
USDA-donated foods to ensure that the SFAs receive full credit.

Food and Nutrition Service Response:

FNS concurs with this recommendation and agrees with recovering any un-credited funds
as appropriate according to federal law and NSLP regulations. FNS will confer with OIG
prior to determining the appropriate action to take.

Estimated Completion Date: August 1, 2013 (estimate, contingent on OIG
direction)


OIG Recommendation 9

Ensure FNS regional offices review how State agencies monitor the implementation of
contracts between SFAs and FSMCs, specifically, how State agencies and SFAs account
for all USDA-donated foods and any credits they received from their FSMCs.

Food and Nutrition Service Response:

In 2009, FNS strengthened the management evaluation of State agencies by establishing
a NSLP Management Evaluation Risk Assessment Tool to select State agencies for
evaluations based on risk rather than a calendar year. The tool includes an assessment of
a significant number of state and/or local procurement issues including FSMC contracts
as a “High Priority” risk indicator. Additionally, in FY2013, the management
evaluations of State agencies will assess the oversight of contracts between SFAs and
FSMCs as evidenced by the addition of the USDA Foods and Processing of USDA Foods
section in the FY2013 ME Guidance and the identification of this section and the FSMC
section as “critical areas” for management evaluations conducted in FY2013. FNS
considers this recommendation “closed.”

Completion Date: November 19, 2012


OIG Recommendation 10

Implement requirements for SFAs to ensure that the value of USDA-donated foods
provided to FSMCs are properly accounted for and credited on the FSMCs’ monthly
invoices. In addition, require that State agencies, during their periodic reviews, monitor
their SFAs to ensure compliance with this requirement.




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                               P age |6




Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will issue an updated policy guidance
memorandum to clarify FNS’ stated expectation that SFAs properly account for and
receive the credit on monthly invoices for USDA-donated foods provided to FSMCs and
that State agencies, during their periodic reviews, monitor SFAs to ensure compliance
with FSMCs providing supporting documentation of all purchase rebates received.

Estimated completion date: January 31, 2013


OIG Recommendation 11

Establish minimum requirements for State agencies to review its SFA's process for
documenting and accounting for the value of USDA-donated bulk foods sent to food
processors.

Food and Nutrition Service Response:

In FY2013, FNS will assess the oversight of contracts between SFAs and FSMCs during
management evaluations as evidenced by the addition of the USDA Foods and
Processing of USDA Foods section in the FY2013 ME Guidance and the identification of
this section and the FSMC section as “critical areas” for management evaluations
conducted in FY2013. FNS considers this recommendation “closed.”

Completion Date: November 19, 2012


OIG Recommendation 12

Work with the State agency to determine if the $1.2 million in program funds should be
recovered from the cited FSMCs.

Food and Nutrition Service Response:

FNS concurs with this recommendation and agrees with recovering any un-credited funds
as appropriate according to federal law and NSLP regulations. FNS will confer with OIG
prior to determining the appropriate action to take.

Estimated Completion Date: August 1, 2013 (estimate, contingent on OIG
direction)




                            AN EQUAL OPPORTUNITY EMPLOYER
                                                                                P age |7




OIG Recommendation 13

Work with the State agency to develop an action plan to review the remaining 182 SFAs
to ensure that FSMCs reconciled actual costs on a monthly basis and, if not, determine
the amount of any additional cost reductions owed and ensure they are deposited in the
SFAs’ food service accounts.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS Headquarters will work with the RO, OIG
and the State agency to determine the remaining 182 SFAs contracting with FSMCs.
Upon identification of the 182 SFAs in need of a review, the State agency will develop an
action plan to review the remaining SFAs to ensure that FSMCs reconcile actual costs on
a monthly basis, determine additional cost reductions owed, and ensure these deposits are
made to the SFA nonprofit school food service account.

Estimated date of completion: August 1, 2013


OIG Recommendation 14

Develop a plan to review all State agency contracts nationwide and provide guidance to
those State agencies, as needed.

Food and Nutrition Service Response:

FNS agrees with this recommendation. The NSLP ME Risk-Based Assessment
Workgroup consisting of FNS Headquarters and Regional office staff will convene to
develop a plan for reviewing State agencies having a prototype FSMC contract through
the management evaluation process.

Estimated Date of Completion: September 30, 2013


OIG Recommendation 15

As part of the process to amend the Coordinated Review Effort, or other State methods of
conducting local administrative reviews, ensure that the review process requires an
assessment of SFAs’ and FSMCs’ compliance with all contract provisions.

Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS will utilize a working group to propose a
method for State agencies to include an assessment of SFAs’ and FSMCs’ compliance
with all NSLP requirements as part of the State agency local administrative review




                             AN EQUAL OPPORTUNITY EMPLOYER
                                                                              P age |8




process. The working group will consist of FNS Headquarters and RO staff, State agency
staff, and SFA staff. The proposed action plan will be established by December 1, 2013.

Estimated completion date: December 1, 2013




                            AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Administrator, Food and Nutrition Service
 Attn: Agency Liaison Officer

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
